                 REPORT ON THE AUDIT OF NETWORK
                     REMOTE DIAL-IN SECURITY



                        TABLE OF CONTENTS


                                                             Page
EXECUTIVE DIGEST ...........................................    1


AUDIT OBJECTIVE ............................................     4


AUDIT SCOPE ................................................     4


BACKGROUND .................................................     4

FINDING - The Commission Has Not Adequately Secured The
          Network Remote Dial-In Capability

     o Details of Finding ..................................     7
     o Recommendations .....................................     11

APPENDIX 1 -   Audit Team and Acknowledgements

APPENDIX 2 -   Audit Methodology

APPENDIX 3 -   October 18, 1996 report entitled "Flash Report on
               Vulnerabilities Identified during our Review of
               Remote Dial-In Security"

APPENDIX 4 -January 10, 1997 report entitled "Audit Of The
               Federal Communications Commission (FCC) Remote
               Dial-In Capability" prepared by TWM Associates,
               Inc. reporting the detailed results of Remote
               Dial-In Testing

APPENDIX 5 -Managing Director's Response to the Draft Audit
               Report
EXECUTIVE DIGEST

In 1992, the Commission engaged in an agency-wide effort to
modernize its automated information systems. The goal of the
program, entitled "Information Systems Modernization (ISM)", was
to "replace the Commission's obsolete IRM [Information Resource
Management] equipment and systems with an entirely new
information systems architecture to meet our mission needs."
Many objectives were envisioned including "easier access to all
databases and greatly enhanced ability to retrieve and to
manipulate data to support regulatory and administrative
decisions" and "widespread use of electronic mail and bulletin
boards for dissemination of information, exchange of documents,
and communications within the Commission and with the public."
To accomplish these objectives, the Commission moved from a
centralized mainframe processing environment to a distributed
network-based processing environment.

Since 1992, the Commission has made tremendous strides in
implementing the distributed networked environment which existed
only on paper at that time. In fact, the rapidity of changes in
computers have resulted in accomplishments beyond those
originally anticipated. For example, the introduction and
encouraged use of the Internet as a means of distributing
information has greatly reduced the need for bulletin boards as
originally envisioned. However, along with the benefits that
have clearly been derived from the Commission's conversion to a
distributed environment, have come increased risks. The major
risk to networked environments such as the Commission's is an
unauthorized user gaining access to the network or an authorized
user accessing inappropriate network resources.

As part of our ongoing efforts to ensure the security of the
Commission's network, the Office of Inspector General (OIG),
working closely with the office of the Associate Managing
Director - Information Management (AMD-IM), has conducted an
audit of network remote dial-in security. To conduct this
review, the OIG contracted with the computer security firm of TWM
Associates, Inc. (hereafter referred to as "TWM") to provide
technical support.

The FCC Wide Area Network (WAN) supports remote access using a
centralized modem pool, Novell's GroupWise Remote and Symantec's
PcAnywhere for Window's communication software, and standard
phone service. Depending on the type of communication software
installed, modem pool users can do everything from checking e-
mail to accessing databases. In addition, access to the network
can be gained using stand-alone modems and analog phone service.
 This method of access includes both known entry points (modems
purchased and distributed by AMD-IM) and unknown entry points
(modems purchased and installed without AMD-IM's knowledge). The



                                1
objective of this task was to evaluate the current security
configuration of modem pool dial-in security and, as needed,
define an enhanced security posture. An additional objective was
the identification of unknown dial-up entry ports supporting
stand-alone modem access (i.e.,"rogue" modems), an assessment of
the security of those ports, and the identification of
alternatives for securing those ports (please refer to figure 1
below).




  figure 1 - Series of stand-alone modems collected from network hub rooms

During our review, we determined that the Commission's network is
vulnerable to compromise via remote dial-in. In fact, during
testing the audit team was able to gain access to the network and
compromise a limited number of components. In our  opinion, given
time and using readily available automated tools1, the audit team
could have compromised additional components of the network and
   1
       The audit team chose not to use these tools because of concerns about
              compromising network integrity. In addition, testing the logical
              security of internal network components was not an objective of
              this review.




                                       2
affected its overall integrity, confidentiality, and
availability. Due to the severity of the specific condition
identified during testing, the OIG issued a report entitled
"Flash Report on Vulnerabilities Identified during our Review of
Remote Dial-In Security" during the audit. A copy of the flash
report is included as Appendix 3 to this report.

In addition to the specific vulnerabilities identified in our
flash report, we determined that Commission equipment and
telecommunication inventory records do not accurately reflect
distributed modems; telecommunications resources are not
physically secured; selected network components are not properly
configured and administered to ensure secure use; and security
violation logs are not adequately monitored.

As we have stated, the Commission has become increasingly
dependent upon its automated systems. Interruption to services
provided by the network, which include access to databases, e-
mail, and the Internet, would be extremely disruptive to the
Commission. Loss of the network would have an immediate and
profound effect on employee productivity and would impact the
Commission's ability to service its customers. For example, the
e-mail system could be disabled, information available on
Commission databases could not be retrieved, or distribution of
public information could be hampered. Strong controls over the
network remote dial-in capability, particularly over "rogue"
modems, help create a secure environment and reduce the risk of
these scenarios.

Detailed information about the methodology used, specific
conditions identified, and other sensitive material collected in
this review is included in a series of appendices attached to
this report. Those appendices containing sensitive information
are hand stamped "SENSITIVE" and will be distributed only to
those personnel with a need for the information. Those personnel
receiving these appendices are requested not to photocopy or
otherwise distribute this material.




                                3
AUDIT OBJECTIVE

The Federal Communications Commission (FCC) has established
access to the internal Wide Area Network (WAN) through remote
dial-up connectivity allowing FCC users to access the network
from remote locations using laptop or stand-alone personal
computers via a centralized modem pool. The objective of this
audit was to evaluate the current security configuration of this
dial-in capability and, as needed, define an enhanced security
posture for the existing configuration. An additional objective
was the identification of unknown dial-up entry ports (supporting
stand-alone "rogue" modems), an assessment of the security of
those ports, and the identification of alternatives for securing
those ports.

AUDIT SCOPE

The audit was conducted in accordance with Generally Accepted
Government Auditing Standards and included such analysis,
interviews and testing as required to support the audit findings.

The scope of this review included all components of the
Commission's WAN, however, our review of field office components
was limited to telephone interviews and did not include a
physical observation of the automated environment. In addition,
our review did not include an assessment of Integrated Services
Digital Network (ISDN) modems. At the time of our review, the
Commission was testing a limited number of these modems.

Audit fieldwork included interaction with most Commission Bureaus
and Offices and was performed from September through November
1996.

BACKGROUND
On December 24, 1985, the Office of Management and Budget (OMB)
issued Circular No. A-130. This Circular provides a general
policy framework for management of Federal information resources.
 The Circular implements provisions of the Paperwork Reduction
Act of 1980 as well as other statutes, Executive Orders, and
policies concerning general information policy, information
technology, privacy, and maintenance of Federal records. In
addition, the Circular places specific responsibility on the head
of each agency to "(e)nsure that the information policies,
principles, standards, guidelines, rules and regulations
prescribed by OMB are implemented appropriately within the
agency."

Appendix III to OMB Circular No. A-130, entitled "Security of
Federal Automated Information Systems", establishes a minimum set
of controls to be included in Federal automated information



                                4
systems security programs.   The appendix specifically requires
that agencies shall:

a.Assure that there are appropriate technical, personnel,
     administrative, environmental, and telecommunications
     safeguards in automated information systems;

b.Assure the continuity of operations of automated information
     systems that support critical agency functions;

c.Implement and maintain an automated information systems
     security program, including the preparation of policies,
     standards, and procedures;

d.Assure that an appropriate level of security is maintained at
     all information technology installations operated by or on
     behalf of the Federal Government.
On January 8, 1988, the President signed the Computer Security
Act of 1987 into law. The purpose of the law was to recognize
that "improving the security and privacy of sensitive information
in Federal computer systems is in the public interest." The law
"creates a means for establishing minimum acceptable security
practices for such systems, without limiting the scope of
security measures already planned or in use."

The Commission's network remote dial-in capability is currently
provided via a centralized modem pool and a special FCC-modified
version of Symantec's Norton PcAnywhere for Windows and Novell's
GroupWise Remote product (please refer to figure 2 on page 6).
Based upon a July 1996 survey conducted by the Office of the
Associate Managing Director - Information Management (AMD-IM),
there are three-hundred fifty-one (351) potential Groupwise
Remote users (i.e., users who have requested Groupwise Remote for
their home personal computers). In addition to the AMD-IM
controlled modem pool, there are an unknown number of additional
analog and Integrated Services Digital Network (ISDN) modems
installed by end-users (please refer to figure 1 on page 2).




                                 5
figure 2 -Close-up of the centralized modem pool maintained in the Commission
            computer room in the 1919 M Street facility




                                      6
Finding - The Commission Has Not Adequately Secured The Network
          Remote Dial-In Capability

During our review, we determined that the Commission has not
established effective controls to ensure the security of the
network remote dial-in capability. For example, we determined
that Commission equipment and telecommunication inventory records
do not accurately reflect distributed modems; telecommunications
resources are not physically secured; selected network components
are not properly configured and administered; and security
violation logs are not adequately monitored.

Inadequate controls over the network remote dial-in capability
threaten the viability of the network by increasing the risk of
inappropriate access. During our review, we determined that the
Commission's network is vulnerable to compromise via remote dial-
in. In fact, during testing the audit team was able to gain
access to the network and compromise a limited number of
components. In our opinion, given time and using readily
available automated tools, the audit team could have compromised
additional components of the network and affected its overall
integrity, confidentiality, and availability. Due to the
severity of the condition and to ensure a timely response, the
OIG issued a "Flash Report." A copy of the flash report,
entitled "Flash Report on Vulnerabilities Identified during our
Review of Remote Dial-In Security" and dated October 18, 1996, is
included as Appendix 3 to this report.

Requirements For Securing The Remote Dial-In Capability Are Well
Established In Government, Industry And Commission Standards

The requirements for securing network connectivity are well
established in Government and industry standards. Office of
Management and Budget (OMB) Circular No. A-130, entitled
"Management of Federal Information Resources", establishes a
minimum set of controls to be included in Federal automated
information systems security programs. The Circular states that
agencies shall "assure that there are appropriate technical,
personnel, administrative, environmental, and telecommunications
safeguards in automated information systems" and that agencies
"assure the continuity of operation of automated information
systems that support critical agency functions."

In December 1990, the Institute for Internal Auditors published
the Systems Auditability and Control Report, hereafter referred
to as the "SAC Report." The SAC Report is the result of a major
research project conducted by top professionals in the
information systems audit profession and provides comprehensive
guidance on information technology and information systems
auditing. Requirements for network remote access controls are
recognized in several modules of the SAC Report. In module



                                7
eight, entitled "Telecommunications", the SAC Report recognizes
dial-in security as a "major means of network control" to
"prevent an unauthorized user from gaining access to the network
through a combination of hardware, software, and physical
security." The module goes on to state that "(t)he likelihood of
an unauthorized user accessing the network through the telephone
line is directly related to the ease of determining the network
port's telephone number, the costs incurred while attempting this
action, and the effectiveness of logical security barriers. When
the network access number is easy and inexpensive to obtain and
logical security controls are inadequate, the possibility that an
unauthorized user will attempt to breach network security is
relatively high" (emphasis added). In fact, these conditions
were identified during our testing of remote dial-in security.

FCC Directive 1479.1, entitled "FCC Computer Security Program"
and dated November 30, 1995, establishes a framework of
guidelines for remote dial-in at the Commission. The directive
states that the "guidelines should be considered by FCC users and
AMD-IM Network Administrators to facilitate secure dial-in/out
communication with FCC computer systems." The following
guidelines are provided:

     ·Dial-in ports should be protected from unauthorized access;

     ·Dial-in to FCC computer systems must only occur through
          entry points approved by AMD-IM;

     ·Updates and changes in system communication hardware and
          software should be tested thoroughly to prevent
          unintentional access exposures;

     ·Controls should be established to ensure remote users are
          positively identified and authenticated before
          connection to the network is authorized. Further,
          remote system(s) access using Guest accounts must be
          prohibited; and

     ·Reasonable care should be taken to protect communication
          equipment and telecommunications cables from
          unauthorized access. Any installation or adjustment of
          communication equipment must be coordinated through
          AMD-IM, NMD [Network Management Division] in advance.

In our opinion, these guidelines present a solid framework for
managing network remote dial-in security. The audit team found
little evidence of the implementation of these controls during
our review.

Commission computer equipment and telecommunications inventory
records do not accurately reflect distributed modems



                                8
As part of our review of remote dial-in security, we obtained and
reviewed copies of computer equipment and telecommunication
inventory records. Using these records, the audit team conducted
a physical survey of Commission work space. The objective of the
survey was two-fold. The first objective was to locate modems
and the second objective was to assess the accuracy of inventory
records. During the review, we located numerous modems which did
not have FCC inventory tags and which were not reflected in the
equipment inventory.

Telecommunication inventory records identify both ISDN and analog
phone lines. In general, ISDN lines support Commission voice
service and analog lines support fax machines, secure phones, and
modem resources. The audit team obtained an automated copy of
the telecommunication inventory records and developed a report,
sorted by physical location, of analog lines. In addition to
physically tracing analog phone lines to test accuracy, the audit
team used "war dialer" software to call several thousand
Commission extensions. As a result of this testing, the team
identified numerous modems which were not accurately recorded in
telecommunications inventory records. Detailed results of our
testing is provided in Appendix 4 of this report.

Telecommunications resources are not physically secured

In March 1994, the OIG issued an audit report entitled "Report on
the Audit of Physical Security of the Local Area Network." In
that report, the OIG reported weaknesses in the physical security
of areas, including telephone closets used for vertical cabling,
 where critical network components are stored. In that report,
we recommended that steps be taken to ensure that these areas are
secured. In March 1996, the OIG issued an audit report entitled
"Report on the Follow-Up Audit of Physical Security of the Local
Area Network." In that report, the OIG reported that weaknesses
in physical security in areas where critical network components
are stored continue to exist and recommended that steps be taken
to ensure that these areas are secured.

As part of our review of remote dial-in security, we conducted a
physical survey of Commission work space in the Washington, DC
area and at the Gettysburg, PA. facility. The Washington D.C.
locations included:

          ·2000   L Street
          ·1919   M Street
          ·2000   M Street
          ·2025   M Street
          ·2033   M Street
          ·2100   M Street
          ·1250   23rd Street



                                9
During our review of work space in the Washington, DC. area we
identified several phone closets containing both
telecommunications wiring and network cabling which were not
physically secured. In addition, we identified numerous ISDN
handsets (telephones) stored in these unsecured areas. These
ISDN handsets are valued from $500 to $800 per unit.

Selected Network Components Are Not Properly Configured

As part of our assessment of remote dial-in security, we used
"war dialer" software, as well as computer equipment and
telecommunication inventory records, to identify network ports
supporting remote communication. Following identification, we
conducted off-site tests to assess the security of those ports.
Standard login procedures were used in an attempt to "break into"
the system. In addition to assessing these ports, we evaluated
security of the modem pool supported by AMD-IM.

During testing, we identified several weaknesses in the
configuration of network components. For example, we were able
to compromise a network component that was configured to allow
GUEST logins. Using this component as an attack platform, we
were able to compromise additional network equipment which
allowed GUEST login. In addition, we identified network
components which were not configured to require userids and
passwords. In our opinion, this equipment could have been
"captured" by the audit team by simply establishing a User ID and
password. The result would have been the inability of network
management personnel to gain access to this equipment. Detailed
results of our testing is provided in Appendix 4 of this report.

Security Violation Logs Are Not Adequately Monitored
As reported in the previous finding, we conducted off-site
testing of identified network ports supporting remote dial-in.
Initially, the testing was conducted after Commission business
hours to reduce the likelihood of identification by network
management personnel. However, after several successful attacks
against the network, the team decided to conduct testing openly
during business hours. Our intent in conducting tests during
business hours was to assess the degree to which network
management personnel were able to review security logs and report
security incidents in a real time manner. Our testing indicated
that security violation logs were not being adequately monitored.

Remote Dial-In Security Weaknesses Threaten Network Viability

Inadequate remote dial-in security increases the risk of
inappropriate access and threatens the availability, integrity,
and confidentiality of information on the network. During our



                               10
testing, we demonstrated the vulnerability of the network to
inappropriate access by remote dial-in. After successfully
compromising one inappropriately configured computer, the audit
team was able to attack and compromise several additional network
components. In our opinion, the audit team gained enough
privilege to compromise components of the network and affect its
overall integrity, confidentiality, and availability.

Recommendation for Corrective Action 1 of 3

The Managing Director implement and enforce the remote dial-in
guidelines established in FCC Directive 1479.1, entitled "FCC
Computer Security Program." In addition, the Managing Director:
(1) conduct a complete inventory of Commission modems and adjust
inventory records to reflect this action; (2) require
justification for the use of each modem identified; (3) assess
the security and operational requirements of each modem for which
a valid requirement exists; (4) remove modems for which no valid
requirement exists; and (5) establish a program for periodically
testing modems to ensure that an acceptable level of network
security is maintained.

Recommendation for Corrective Action 2 of 3
The Managing Director take steps to physically secure areas where
critical telecommunications resources are stored.

Recommendation for Corrective Action 3 of 3

The Managing Director address the specific conditions reported in
Appendix 42. In addition, the Managing Director examine all
network components to ensure that: (1) all components employ
unique individually assigned userids and passwords; (2) adequate
security features including password files and audit files are
implemented and protected; and (3) access to sensitive
communication applications be limited. Furthermore, the Managing
Director direct network management personnel to establish a
program for daily review of security incident logs.

Management Response
The Managing Director concurred with the report results and
provided specific comments about selected conditions identified
during the review. With respect to our finding of Guest account
login with no password, the Managing Director reports that this
capability has been disabled. In addition, the Managing Director
   2
       Because of the sensitive nature of the material contained in this document,
               copies will only be distributed to those personnel with a need for
               the information.




                                         11
reports that two components accessed during the review,
"Maglink1" and "Maglink2", are "bridges which were previously
used to support network connectivity" and that "these devices are
not physically connected to the network." The Managing Director
goes on to state that "since the devices are kept in inventory
for contingency use, AMD-IM has coordinated an effort to take
precautionary measures and now require a password for future use
of the devices."

With respect to our finding that dynamic userid/password files
created by GroupWise can be recovered using Norton Utilities, the
Managing Director explains that "the threat is minimized by the
fact that successfully hacking one computer will only allow
access to the last GroupWise e-mail account accessed from that
computer." Furthermore, the Managing Director points out that
"to accomplish such a break-in, a person would require physical
access to the space where a computer is located."




                               12
